  HEARING BEFORE THE SENATE FINANCE COMMITTEE

              UNITED STATES SENATE

                       ON




              TAX SCAMS & SCHEMES

                   April 1, 2003




                PAMELA J. GARDINER
            ACTING INSPECTOR GENERAL
TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
Mr. Chairman, Senator Baucus and members of the Committee, I appreciate the
opportunity to appear before you today to discuss an aspect of the Internal
Revenue Service’s (IRS) electronic filing (e-file) Program, specifically its use of
electronic return providers or originators (Providers or EROs). I would like to
report on my office’s efforts in assessing the IRS’ monitoring of EROs and in
investigating individuals who corruptly interfere with this aspect of the tax
administration system.

In considering major changes to the IRS’ processes in 1998, the Congress
determined that electronic filing should be the preferred and most convenient
filing method. The IRS concurs that it is more convenient and economical and
less time consuming to do business electronically rather than sending paper
through the mail. The IRS has stated that while the government saves money,
the real benefits of electronic filing are realized by the taxpayer. These benefits
include reduced preparation time, faster refunds, greater accuracy of returns
processing, and acknowledgement of return receipt.

As part of the IRS Restructuring and Reform Act, the Congress set a goal of
having 80% of all tax and information returns filed electronically by 2007. The
Congress also directed the IRS and Treasury Department to eliminate barriers,
provide incentives, and use competitive market forces to create a vigorous
private sector competition to increase taxpayer use of electronic filing. In
response, the IRS has aggressively marketed the e-file Program to return
preparers, and continues to encourage widespread participation by the preparer
community.

For the 2002 Filing Season, more than 138,000 EROs participated in the IRS’ e-
file Program, electronically transmitting more than 33 million returns accepted by
the IRS. This number represents 71% of all accepted e-file returns.

EROs are individuals or businesses that the IRS accepts to be authorized to file
tax returns electronically. To be an authorized ERO, one must be a United
States citizen or an alien lawfully admitted for permanent residence, and be 21
years of age as of the date of application. Unlike an Enrolled Agent, EROs are
not required to have experience or skill in return preparation.

The IRS is responsible for ensuring that EROs authorized to participate in the e-
file Program maintain a high degree of integrity and adhere to the highest
professional and ethical standards. Toward this end, the IRS publicizes that it
has an extensive screening process that includes:

       -   A Federal Bureau of Investigation (FBI) criminal background check;
       -   A credit history check;
       -   An IRS records check to ensure that all individual and business returns
           are filed, all payments are up to date, and there are no instances of
           fraud and preparer penalties; and



                                         2
        -    A check for prior non-compliance in the IRS e-file Program.

The IRS’ ERO Monitoring Program is a key control over the e-file Program; its
purpose is to verify participating EROs’ compliance with IRS e-file requirements.
E-file Monitoring Coordinators are responsible for the oversight of EROs’
operations, including on-site visits. The visits may be of two types: random and
mandatory. Random visits are used to determine general compliance within the
IRS e-file Program. Mandatory visits, by contrast, are used to investigate
allegations and complaints submitted against EROs. Violations of IRS ERO
requirements may result in a verbal or written warning, written reprimand,
suspension, or expulsion of the ERO from the IRS e-file Program, depending on
the seriousness of the infraction.

In a recent audit report, TIGTA found that the IRS has made strides with its ERO
Monitoring Program efforts. Specifically, the IRS has developed and revised
procedures and training materials, and established a goal to annually visit 1
percent of all EROs. The ERO Monitoring Program achieved this goal in both
2001 and 2002; however, resource constraints prevent the IRS from monitoring
all EROs on whom it receives complaints.

There are additional challenges the IRS faces in administering the ERO program
successfully. TIGTA has identified weaknesses in the screening process that
present a risk that ineligible individuals are being admitted into the program.
Screening checks the IRS publicized as extensive were limited primarily to
whether the EROs filed their returns and paid taxes due. Other identified
applicant screening deficiencies included:

        -   The IRS does not independently validate age and citizenship
            requirements. TIGTA’s analysis of IRS data identified 350 individuals
            who were not U.S. citizens; 63 individuals who were not over 21 years
            of age; and 30 individuals who were deceased prior to
            January 1, 1986 (the inception of the IRS’ e-file Program).

        -    Screening checks (including tax compliance checks) were not
             performed for individuals who participate as e-file Providers in the IRS’
             Volunteer Income Tax Assistance (VITA) Program. For the 2001 Filing
             Season, VITA volunteers e-filed more than 700,000 tax returns.

        -    Criminal background checks were limited to 25% of those applicants1
             who are required to submit a fingerprint card.



1
  Applicants that are required to submit fingerprint cards are those businesses (sole proprietors,
partnerships, or appropriate corporation or organization officials) who want to become an Authorized ERO
and are not attorneys, CPAs, Enrolled Agents, banking officials who are bonded and have been
fingerprinted in the last 2 years, or officers of a publicly owned corporation.


                                                   3
       -   Applicants were approved to participate in the e-file Program prior to
           the IRS’ receipt and analysis of criminal background information
           obtained from the FBI.

       -   Subsequent non-tax screening checks are not performed to ensure
           individuals already authorized to participate in the IRS’ e-file Program
           continue to maintain a high degree of integrity and adhere to the
           highest professional and ethical standards.

IRS disagreed with TIGTA’s June 2002 audit results and indicated that the IRS’
existing screening process and participation rules strike a good balance between
meeting taxpayers’ needs for increased electronic filing options and ensuring
integrity of the e-file Program. However, TIGTA did not concur with this assertion
and, in a January 2003 audit report, TIGTA reiterated concerns with the IRS’ e-
file Program and recommended that the IRS establish meaningful performance
measures to assess not only relevant outputs (i.e., number of monitoring visits
completed) but also program outcomes (i.e., the impact of the ERO Monitoring
Program on compliance).

TIGTA has also conducted investigations into alleged abuses in the ERO
Program. In Fiscal Year 2002, TIGTA’s Office of Investigations conducted 77
investigations involving EROs and paid preparers, 26 of which were EROs.
TIGTA investigations have involved allegations that preparers stole taxpayer
refunds and remittances, and that preparers submitted false declarations
concerning their professional or eligibility status to the IRS. In one recent
example, TIGTA participated in the joint investigation of an authorized ERO who
had filed approximately 9,000 fraudulent tax returns over a three-year period,
resulting in an estimated loss of over $7 million in fraudulent tax refunds for one
year alone; the total extent of the fraud is still under investigation. This
investigation disclosed that a number of risks and program weaknesses
previously reported in TIGTA audit reports to the IRS allowed this individual to
illegally file fraudulent returns. For example, the ERO was in the United States
illegally while perpetrating the fraud and there is no documentation that the ERO
was ever the subject of an ERO Monitoring Program inquiry, even though this
individual had 41% of the tax returns submitted to the IRS returned due to an
error on the tax return. As an indicator of potential problems with EROs, TIGTA
found there is no national process to leverage information that the IRS captures
on how many tax returns are sent back to an ERO due to errors identified by the
IRS. TIGTA became aware of the fraudulent filing of tax returns after the ERO
was caught cashing stolen refund checks. The ERO pled guilty in October 2002
and is currently awaiting sentencing.

The reorganized IRS is focused on both helping people comply with the tax laws
and ensuring the fairness of enforcement efforts. As budgetary pressures
increase, it will become all the more essential that taxpayers remain persuaded
of the benefits of electronic filing so that the costs of processing tax returns are



                                          4
contained, and limited enforcement resources can be directed where they are
most needed. Providing strong, risk-based oversight of the ERO community and
the e-file Program in general will help provide the public with this assurance.




                                       5
